BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Brief of the Chamber of Commerce of the
United States of America, National Federation of
Independent Business, and the Direct Selling
Association as Amici Curiae in Support of Petitioners
in 20-1093, Just Energy Marketing Corp., et al. v.
Davina Hurt and Dominic Hill, individually and on
behalf of all others similarly situated, was sent via
Three Day Service to the U.S. Supreme Court, and via
Three Day and e-mail service to the following parties
listed below, this 15th day of March, 2021:
Paul D. Clement
Kirkland & Ellis LLP
1301 Pennsylvania Avenue, NW
Washington, DC 20004
(202) 389-5000
pa ul.clement@kirkland.com
Counsel for Petitioners
Neal Kumar Katyal
Hogan Lovells US LLP
555 Thirteenth St., N.W.
Washington, DC 20004
(202) 637-5528
neal.katyal@hoganlovells.com
Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Michael H. McGinley
Counsel of Record
Dechert LLP
1900 K Street, NW
Washington, DC 20006
(202) 261-3300
Michael.McGinley@dechert.com
Michael P. Corcoran
Carla G. Graff
Dechert LLP
2929 Arch Street
Philadelphia, PA 19104
Counsel for Amici Curiae
Tara S. Morrissey
Stephanie A. Maloney
U.S. Chamber Litigation Center
1615 H Street, NW
Washington, DC 20062
(202) 463-5337
Counsel for the Chamber of Commerce of the United
States of America
Brian Bennett
Direct Selling Association
1667 K Street, NW
Suite 1100
Washington, DC 20006
Counsel for the Direct Selling Association

Karen R. Harned
Elizabeth Milito
National Federation of Independent. Business, Small
Business Legal Center
555 12th Street, NW
Suite 1001
Washington, DC 20004

Counsel for the National Federation of Independent
Business

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on March 15, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

()l-.aLvh

ovJ-(

~~I?' ti_ o. /Ju--~((_

Notary Public
[seal]

I'~

'

'(_)

